No. ________
IN THE

Supreme Court of the United States
________________
ROXANNE TORRES,
Petitioner,
v.
JANICE MADRID, A NEW MEXICO STATE POLICE INVESTIGATIONS
BUREAU OFFICER; RICHARD WILLIAMSON, A NEW MEXICO STATE
POLICE INVESTIGATIONS BUREAU OFFICER,
Respondents.
APPLICATION TO THE HON. SONIA M. SOTOMAYOR
FOR A 30-DAY EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE TENTH CIRCUIT
Pursuant to Rule 13(5) of the Rules of this Court, Applicant Roxanne Torres
moves for an extension of time of 30 days, up to and including August 30, 2019,
within which to file a petition for a writ of certiorari.
1. Applicant will seek review of the judgment in Torres v. Madrid, No. 182134, (10th Cir. May 2, 2019). A copy of the decision, dated May 2, 2019, is attached
as Exhibit 1. The current deadline for filing a petition for writ of certiorari is July
31, 2019. This application is filed more than 10 days before the date the petition is
due. See Sup. Ct. R. 13.5. The jurisdiction of this Court is based on 28 U.S.C.
§ 1254(1).
2. Good cause exists for an extension. Applicant has recently retained the
undersigned as new counsel and therefore seeks a 30-day extension to August 30,

2019, so that counsel can review the record, study the relevant case law, and
prepare a petition.
3. An extension is further justified by the press of business on numerous
other matters. The undersigned is responsible for the following engagements, all of
which have intervening deadlines between now and when the petition for certiorari
in this case is due:
1) Oral argument in Idenix Pharmaceuticals LLC et al. v. Gilead Sciences,
Inc., No. 18-1691 (Fed. Cir.) on July 9, 2019.
2) A reply brief in Lanzo v. Cyprus Amax Minerals, No. A-005717-17 (N.J.
App.) due July 11, 2019.
3) An opening brief in Arconic Inc. v. APC Investment Co., No. 19-55181
(9th Cir.) due July 15, 2019.
4) An opening brief in Ingham v. Johnson & Johnson et al., No. 10-7476
(Mo. App.) due August 16, 2019.
5) A certiorari petition in Morris v. Mekdessie, No. 18-30705 (5th Cir.) due
August 26, 2019.
3. In addition, an extension is warranted because this case presents a
substantial question of law on which the federal courts of appeals are divided. This
Court held in Hodari D. that under the Fourth Amendment, “[t]he word ‘seizure’
readily bears the meaning of a laying on of hands or application of physical force to
restrain movement, even when it is ultimately unsuccessful.” 499 U.S. 621, 626
(1991).
But the Tenth Circuit held in the decision below that “an officer’s intentional
shooting of a suspect does not effect a seizure unless the ‘gunshot ... terminate[s]
[the suspect’s] movement or otherwise cause[s] the government to have physical

control over him.’” Torres v. Madrid, 769 F. App’x 654 (10th Cir. 2019) (citing
Brooks v. Gaenzle, 614 F.3d 1213, 1224 (10th Cir. 2010)).
The courts of appeals are sharply divided on this issue. The Eighth and
Eleventh Circuits have adopted the Hodari D. definition of “seizure” in situations
where a suspect is shot by law enforcement yet evades arrest, having concluded that
a seizure occurs at the moment a suspect is shot. See Moore v. Indehar, 514 F.3d
756, 761-62 (8th Cir. 2008); Carr v. Tatangelo, 338 F.3d 1259, 1268 (11th Cir. 2003).
The Fourth and Seventh Circuits, in contrast, agree with the Tenth Circuit that a
“seizure” occurs only when an officer’s application of physical force results in the
termination of a suspect’s movement. See Schultz v. Braga, 455 F.3d 470, 481 (4th
Cir. 2006); United States v. Bradley, 196 F.3d 762, 768 (7th Cir. 1999).
An extension of time will help to ensure that the petition clearly and
thoroughly presents the vitally important and complicated issues raised by the
Tenth Circuit’s decision.
5. For the foregoing reasons, Applicant hereby requests that an extension of
time be granted, up to and including August 30, 2019, within which to file a petition
for a writ of certiorari.
Respectfully submitted,

E. Joshua Rosenkranz
Counsel of Record
ORRICK, HERRINGTON & SUTCLIFFE LLP
51 West 52nd Street

New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
July 8, 2019

Exhibit 1

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
ROXANNE TORRES,

Page: 1
FILED
United States Court of Appeals
Tenth Circuit

May 2, 2019
Elisabeth A. Shumaker
Clerk of Court

Plaintiff - Appellant,
v.
JANICE MADRID; RICHARD
WILLIAMSON,

No. 18-2134
(D.C. No. 1:16-CV-01163-LF-KK)
(D. N.M.)

Defendants - Appellees.
_________________________________
ORDER AND JUDGMENT*
_________________________________
Before BRISCOE, McKAY, and LUCERO, Circuit Judges.
_________________________________
In this excessive-force case, Roxanne Torres appeals from a district court order
that granted the defendants’ motion for summary judgment on the basis of qualified
immunity. Exercising jurisdiction under 28 U.S.C. § 1291, we affirm.
BACKGROUND
Early in the morning on July 15, 2014, New Mexico State Police officers went to
an apartment complex in Albuquerque to arrest a woman, Kayenta Jackson, who was

*

After examining the briefs and appellate record, this panel has determined
unanimously to honor the parties’ request for a decision on the briefs without oral
argument. See Fed. R. App. P. 34(f); 10th Cir. R. 34.1(G). The case is therefore
submitted without oral argument. This order and judgment is not binding precedent,
except under the doctrines of law of the case, res judicata, and collateral estoppel. It
may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1
and 10th Cir. R. 32.1.

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

Page: 2

“involved with an organized crime ring.” Aplt. App. at 120. The officers saw two
individuals standing in front of the woman’s apartment next to a Toyota FJ Cruiser. The
Cruiser was backed into a parking spot, with cars parked on both sides of it. The officers,
who were wearing tactical vests with police markings, decided to make contact with the
two individuals in case one was the subject of their arrest warrant.
As the officers approached the Cruiser, one of the individuals ran into the
apartment, while the other individual, Torres, got inside the Cruiser and started the
engine. At the time, Torres was “trip[ping] . . . out” from having used meth “[f]or a
couple of days.” Id. at 108.
Officer Richard Williamson approached the Cruiser’s closed driver-side window
and told Torres several times, “Show me your hands,” as he perceived Torres was making
“furtive movements . . . that [he] couldn’t really see because of the [Cruiser’s] tint[ed]”
windows. Id. at 124 (internal quotation marks omitted). Officer Janice Madrid took up a
position near the Cruiser’s driver-side front tire. She could not see who the driver was,
but she perceived the driver was making “aggressive movements inside the vehicle.” Id.
at 115.
According to Torres, she did not know that Williamson and Madrid were police
officers, and she could not hear anything they said. But when she “heard the flicker of
the car door” handle, she “freak[ed] out” and “put the car into drive,” thinking she was
being carjacked. Id. at 205.
When Torres put the car in drive, Officer Williamson brandished his firearm. At
some point, Officer Madrid drew her firearm as well. Torres testified that she “stepped
2

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

Page: 3

on the gas . . . to get away,” and the officers “shot as soon as the [Cruiser] creeped a little
inch or two.” Id. at 206. Officer Madrid testified that the Cruiser “drove at [her]” and
she fired “at the driver through the windshield” “to stop the driver from running [her]
over.” Id. at 114. Officer Williamson testified that he shot at the driver because he
feared being “crush[ed]” between the Cruiser and the neighboring car, as well as “to stop
the action of [the Cruiser] going towards [Officer] Madrid.” Id. at 125.
Two bullets struck Torres. She continued forward, however, driving over a curb,
through some landscaping, and onto a street. After colliding with another vehicle, she
stopped in a parking lot, exited the Cruiser, laid down on the ground, and attempted to
“surrender” to the “carjackers” (who she believed might be in pursuit). Id. at 208.
Torres “was [still] tripping out bad.” Id. She asked a bystander to call police, but
she did not want to wait around because she had an outstanding arrest warrant. So, she
stole a Kia Soul that was left running while its driver loaded material into the trunk.
Torres drove approximately 75 miles to Grants, New Mexico, and went to a hospital,
where she identified herself as “Johannarae C. Olguin.” Id. at 255. She was airlifted to a
hospital in Albuquerque, properly identified, and arrested by police on July 16, 2014.
She ultimately pled no contest to three crimes: (1) aggravated fleeing from a
law-enforcement officer (Officer Williamson); (2) assault upon a police officer
(Officer Madrid); and (3) unlawfully taking a motor vehicle.
In October 2016, Torres filed a civil-rights complaint in federal court against
Officers Williamson and Madrid. She asserted one excessive-force claim against each
officer, alleging that the “intentional discharge of a fire arm [sic] . . . exceeded the degree
3

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

Page: 4

of force which a reasonable, prudent law enforcement officer would have applied.” Id. at
15, 16. She also asserted a claim against each officer for conspiracy to engage in
excessive force, alleging that the officers had “formed a single plan through non-verbal
communication . . . to use excessive force.” Id. at 15, 16.
The district court construed Torres’s complaint as asserting the excessive-force
claims under the Fourth Amendment, and the court concluded that the officers were
entitled to qualified immunity. It reasoned that the officers had not seized Torres at the
time of the shooting, and without a seizure, there could be no Fourth Amendment
violation.
DISCUSSION
I. Standards of Review
“We review the district court’s summary judgment decision de novo, applying the
same standards as the district court.” Punt v. Kelly Servs., 862 F.3d 1040, 1046 (10th Cir.
2017). Summary judgment is required when “there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a).
Ordinarily, once the moving party meets its initial burden of demonstrating the
absence of a genuine issue of material fact, the burden shifts to the nonmoving party to
set forth specific facts showing that there is a genuine triable issue. See Schneider v. City
of Grand Junction Police Dep’t, 717 F.3d 760, 767 (10th Cir. 2013). But where, as here,
a defendant seeks summary judgment on the basis of qualified immunity, our review is
somewhat different.
4

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

Page: 5

“When a defendant asserts qualified immunity at summary judgment, the burden
shifts to the plaintiff, who must clear two hurdles in order to defeat the defendant’s
motion.” Riggins v. Goodman, 572 F.3d 1101, 1107 (10th Cir. 2009). First, “[t]he
plaintiff must demonstrate on the facts alleged . . . that the defendant violated [her]
constitutional or statutory rights.” Id. While “we ordinarily accept the plaintiff’s version
of the facts,” we do not do so if that version “is blatantly contradicted by the record, so
that no reasonable jury could believe it.” Halley v. Huckaby, 902 F.3d 1136, 1144
(10th Cir. 2018) (internal quotation marks omitted), cert. denied, 2019 WL 358389 (U.S.
March 18, 2019) (No. 18-986). Second, the plaintiff must show “that the right was
clearly established at the time of the alleged unlawful activity.” Riggins, 572 F.3d at
1107. “If, and only if, the plaintiff meets this two-part test does a defendant then bear the
traditional burden of the movant for summary judgment—showing that there are no
genuine issues of material fact and that he or she is entitled to judgment as a matter of
law.” Nelson v. McMullen, 207 F.3d 1202, 1206 (10th Cir. 2000) (internal quotation
marks omitted).
As explained below, Torres’s claims fail under the first prong of the
qualified-immunity analysis.
II. Excessive Force
“We treat claims of excessive force as seizures subject to the Fourth Amendment’s
objective requirement for reasonableness.” Lindsey v. Hyler, 918 F.3d 1109, 1113
(10th Cir. 2019) (internal quotation marks omitted). Thus, “[t]o establish [her] claim,
[Torres] . . . must show both that a seizure occurred and that the seizure was
5

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

Page: 6

unreasonable.” Farrell v. Montoya, 878 F.3d 933, 937 (10th Cir. 2017) (internal
quotation marks omitted). Consequently, “[w]ithout a seizure, there can be no claim for
excessive use of force” under the Fourth Amendment. Id. (internal quotation marks
omitted).
We agree with the district court that Torres failed to show she was seized by the
officers’ use of force. Specifically, the officers fired their guns in response to Torres’s
movement of her vehicle. Despite being shot, Torres did not stop or otherwise submit to
the officers’ authority. Although she exited her vehicle in a parking lot some distance
away and attempted to surrender, her intent was to give herself up to “carjackers.”
Indeed, she testified that she did not want to wait around for police to arrive because she
had an outstanding warrant for her arrest. She then stole a car and resumed her flight.
She was not taken into custody until after she was airlifted back to a hospital in
Albuquerque and identified by police.
These circumstances are governed by Brooks v. Gaenzle, 614 F.3d 1213, 1223-24
(10th Cir. 2010), where this court held that a suspect’s continued flight after being shot
by police negates a Fourth Amendment excessive-force claim. This is so, because “a
seizure requires restraint of one’s freedom of movement.” Id. at 1219 (internal quotation
marks omitted). Thus, an officer’s intentional shooting of a suspect does not effect a
seizure unless the “gunshot . . . terminate[s] [the suspect’s] movement or otherwise
cause[s] the government to have physical control over him.” Id. at 1224.
Here, the officers’ use of deadly force against Torres failed to “control [her] ability
to evade capture or control.” Id. at 1223 (internal quotation marks omitted). Because
6

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

Page: 7

Torres managed to elude police for at least a full day after being shot, there is no genuine
issue of material fact as to whether she was seized when Officers Williamson and Madrid
fired their weapons into her vehicle. See id. (rejecting plaintiff’s contention that “his
shooting alone constitute[d] a seizure,” given that “he continued to flee without the
deputies’ acquisition of physical control” and “remained at large for days”); see also
Farrell, 878 F.3d at 939 (concluding that plaintiffs were not seized when an officer fired
his gun at them, because they continued fleeing for several minutes). Without a seizure,
Torres’s excessive-force claims (and the derivative conspiracy claims) fail as a matter of
law.1
We, therefore, determine that the district court properly entered summary
judgment in favor of Officers Williamson and Madrid on the basis of qualified immunity.

1

Torres argues that Officers Williamson and Madrid cannot dispute whether
she was seized because they did not plead lack of seizure as an affirmative defense.
But seizure is not an affirmative defense, it is an element of a Fourth Amendment
excessive-force claim. See Farrell, 878 F.3d at 937.
Torres also complains that the officers did not argue lack of seizure until their
reply brief in support of summary judgment. But in the seven months between the
filing of the officers’ reply brief and the district court’s grant of summary judgment,
Torres neither sought to file a supplemental opposition to address the officers’ legal
argument nor requested leave to marshal “facts essential to justify [her] opposition,”
Fed. R. Civ. P. 56(d).
Finally, to the extent Torres summarily asserts that a seizure occurred because
her “vehicle was shot up and rendered undrivable,” Aplt. Opening Br. at 22, we do
“not consider issues adverted to in a perfunctory manner, unaccompanied by some
effort at developed argumentation,” Armstrong v. Arcanum Grp., Inc., 897 F.3d 1283,
1291 (10th Cir. 2018) (ellipsis and internal quotation marks omitted).
7

Appellate Case: 18-2134

Document: 010110162602

Date Filed: 05/02/2019

CONCLUSION
The judgment of the district court is affirmed.
Entered for the Court
Monroe G. McKay
Circuit Judge

8

Page: 8

Appellate Case: 18-2134

Document: 010110162603

Date Filed: 05/02/2019

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
OFFICE OF THE CLERK
Byron White United States Courthouse
1823 Stout Street
Denver, Colorado 80257
(303) 844-3157

Elisabeth A. Shumaker
Clerk of Court

May 02, 2019

Chris Wolpert
Chief Deputy Clerk

Mr. Eric David Dixon
Eric D. Dixon Attorney & Counselor at Law, P.A.
301 South Avenue A.
Portales, NM 88130-0000
RE:

18-2134, Torres v. Madrid, et al
Dist/Ag docket: 1:16-CV-01163-LF-KK

Dear Counsel:
Attached is a copy of the order and judgment issued today in this matter. The court has
entered judgment on the docket pursuant to Fed. R. App. P. Rule 36.
Pursuant to Fed. R. App. P. Rule 40(a)(1), any petition for rehearing must be filed within
14 days after entry of judgment. Please note, however, that if the appeal is a civil case in
which the United States or its officer or agency is a party, any petition for rehearing must
be filed within 45 days after entry of judgment. Parties should consult both the Federal
Rules and local rules of this court with regard to applicable standards and requirements.
In particular, petitions for rehearing may not exceed 3900 words or 15 pages in length,
and no answer is permitted unless the court enters an order requiring a response. If
requesting rehearing en banc, the requesting party must file 6 paper copies with the clerk,
in addition to satisfying all Electronic Case Filing requirements. See Fed. R. App. P.
Rules 35 and 40, and 10th Cir. R.35 and 40 for further information governing petitions
for rehearing.

Appellate Case: 18-2134

Document: 010110162603

Date Filed: 05/02/2019

Please contact this office if you have questions.
Sincerely,

Elisabeth A. Shumaker
Clerk of the Court

cc:

Christina Brennan
James P. Sullivan

EAS/at

2

Page: 2

